<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                               
                         [H.A.S.C. No. 115-105]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

                        FISCAL YEAR 2019 ENERGY,

              INSTALLATIONS AND ENVIRONMENT BUDGET REQUEST

                               __________

                              HEARING HELD
                             APRIL 18, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-692                     WASHINGTON : 2019                     
           


                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
               Andrew Schulman, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Megan Handal, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Bayer, Hon. Phyllis L., Assistant Secretary of the Navy for 
  Energy, Installations and Environment, Department of the Navy..     6
Gillis, Jordan, Acting Assistant Secretary of the Army for 
  Installations, Energy and Environment, Department of the Army..     9
Henderson, Hon. John W., Assistant Secretary of the Air Force for 
  Installations, Environment and Energy, Department of the Air 
  Force..........................................................     8
Niemeyer, Hon. Lucian, Assistant Secretary of Defense for Energy, 
  Installations and Environment, Department of Defense...........     3

                                APPENDIX

Prepared Statements:

    Bayer, Hon. Phyllis L........................................    60
    Bordallo, Hon. Madeleine Z...................................    35
    Gillis, Jordan...............................................    90
    Henderson, Hon. John W.......................................    69
    Niemeyer, Hon. Lucian........................................    36
    Wilson, Hon. Joe.............................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Brown....................................................   103
    Mr. Carbajal.................................................   103
    Mr. Wilson...................................................   103

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................   107
    Mr. Brown....................................................   109
    Mr. Courtney.................................................   108
    Mrs. Hartzler................................................   108
    
.    
 FISCAL YEAR 2019 ENERGY, INSTALLATIONS AND ENVIRONMENT BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                          Washington, DC, Thursday, April 18, 2018.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Ladies and gentlemen, good afternoon. The 
Readiness Subcommittee of the House Armed Services Subcommittee 
will come to order.
    I welcome each of you to this hearing, the Department of 
Defense's fiscal year 2019 budget request for military 
construction, facilities investment, environmental restoration 
and compliance, installation energy resilience, and other 
infrastructure issues pertinent to the warfighter and our 
national security.
    Today, the subcommittee will hear from our witnesses how 
the Department and the military services are posturing to meet 
the military infrastructure needs of the Nation, both today and 
in the future.
    Over the past few years, the House Armed Services Committee 
leadership has led the call to provide the military with the 
resources necessary to counter advances by our adversaries.
    Regretfully, years of underfunding and substantial 
budgetary [instability] have, up till now, hampered these 
efforts. I am grateful that Congress and the administration 
have worked together to provide the military what they need to 
begin to reverse the erosion of our military strength.
    There is agreement on funding levels for defense for the 
fiscal year 2019. We have a top line from which to work with, 
but as General Joe Dunford said late last week in testimony 
before the full committee, quote, ``We cannot reverse a decade-
plus of erosion in one fiscal year,'' end of quote.
    Today, the Readiness Subcommittee meets to hear how this 
year's President's budget intends to address installation and 
infrastructure readiness writ large.
    Across the spectrum of operations, our military 
installations are essential to the readiness of the warfighter, 
their families, and the wholeness of the various missions and 
support provided by our selfless Department of Defense civilian 
workforce.
    While clear progress is being made in many budgetary 
fronts, funding across the installations portfolio remain 
somewhat flat, if not headed in the wrong directions in some 
cases, which is a cause for concern. Aggravating the 
underfunding problem, the cost and complexity of infrastructure 
required to support modern weapon systems such as the fifth-
generation aircraft is consuming a growing and, I am concerned, 
an unsustainable portion of the overall construction top line.
    I am committed to work with the Department to achieve 
reforms that further improve the lethality of our installations 
to enable our military to be more agile and more efficient. The 
challenges are great, but working together, we can ensure that 
the military has the most relevant and effective infrastructure 
backbone to prepare [for] what will meet them in the field.
    Before I introduce the witnesses, I turn to the 
distinguished ranking member of this Readiness Subcommittee, 
the gentlelady from the territory of Guam, Congressman 
Madeleine Bordallo, for her opening statements.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 33.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And thank you to our witnesses for being here today. I do 
look forward to hearing how the fiscal year 2019 budget will 
help the Department overcome deficits in MILCON [military 
construction], facilities sustainment, restoration and 
maintenance programs, environmental and energy programs, and 
ultimately, contribute to military readiness and the security 
of our great Nation.
    Mr. Chairman, I would like to take a moment first, but I 
don't see them in the audience, but when they do arrive, I will 
be introducing the members of the Guam Chamber of Commerce who 
met with you this morning. We had a very interesting meeting. 
These are members of the Armed Services Committee.
    Our military installations provide the platform from which 
our military is able to project power and build readiness.
    Maintaining these installations is important for our 
warfighters, and just as important to the quality of life of 
our service members and their families.
    Like Chairman Wilson, I am concerned by the toll that more 
than a decade of budget risk and instability has had on the 
military installations and the military infrastructure.
    We are facing a more than $70 billion backlog of deferred 
maintenance and repairs on our installations. And this number 
will continue to grow unless the Department changes its 
approach to installation investments.
    The recent budget agreement provided additional resources 
to the Department of Defense for fiscal year 2018 and fiscal 
year 2019, and the Department has indicated its top priority is 
to use these additional funds to help restore military 
readiness.
    However, as we review the budget request, I remain 
concerned that the emphasis has been on procuring new 
equipment, rather than focusing on the O&M [operations and 
maintenance] and MILCON accounts that support the facilities, 
the maintenance, and training that enables readiness.
    Unfortunately, the budget request for the infrastructure 
account seem to reinforce my concern with funding largely 
requested at levels below the fiscal year 2018 amount.
    Construction is being largely consumed by new mission 
requirements and sustainment, as well below the OSD [Office of 
the Secretary of Defense] directed goal of 90 percent.
    So with that in mind, it is my hope that our witnesses can 
share how the fiscal year 2019 budget request will help restore 
the readiness of our military installations and how the 
Department will leverage the new authorities and flexibility 
that have been provided by Congress in the recent NDAAs 
[National Defense Authorization Acts].
    I do, however, appreciate the administration's support of 
the Readiness and Environmental Protection Program [REPP], 
which prevents civilian development from encroaching on our 
military installations.
    The REPP program also promotes land conservation in 
partnership with willing landowners and local communities. And 
I appreciate the Department including $75 million for the REPP 
program in the President's fiscal year 2019 budget request, and 
I support funding this program at the requested amount.
    Finally, I encourage the witnesses to share specific 
examples of how unpredictable funding contributed to 
installation management challenges and impacted the quality of 
life for our service men and their families.
    And I look forward to the discussion we will have today. 
And I yield back, Mr. Chairman.
    [The prepared statement of Ms. Bordallo can be found in the 
Appendix on page 35.]
    Mr. Wilson. And thank you very much, Congresswoman 
Bordallo. And I appreciate when you said that the delegation 
from Guam found the office interesting. It was interesting 
because when they arrived, they noticed that I had a clock 
indicating what time it was. It is always tomorrow in Guam. And 
so, in fact, right now it is 4:08 in the morning, tomorrow. So 
we will keep up with this, my appreciation of Guam.
    I am pleased to recognize our witnesses today and thank 
them for taking time to be with us. Secretary Lucian Niemeyer, 
we will begin with you and look forward to your opening 
statement.

   STATEMENT OF HON. LUCIAN NIEMEYER, ASSISTANT SECRETARY OF 
 DEFENSE FOR ENERGY, INSTALLATIONS AND ENVIRONMENT, DEPARTMENT 
                           OF DEFENSE

    Secretary Niemeyer. I appreciate the opportunity, Chairman 
Wilson and Ranking Member Bordallo and distinguished members of 
the subcommittee, to speak to you today about the President's 
budget and our priorities within that budget.
    We look forward to working with the committee to support 
our defense missions and the quality of life for our members 
and their family members who are called to sacrifice so much 
for our country on a daily basis.
    First and foremost, we are very grateful to Congress for 
the recent-enacted Bipartisan Budget Act of 2018 which begins 
the recovery from the significant impacts of sequestration. We 
now have a responsibility to ensure and honor the trust of the 
American people by spending every dollar wisely, and that is 
our plan.
    Early this year, the President released a National Security 
Strategy which then guided the development of a National 
Defense Strategy to clearly articulate the threats and 
challenges our Nation faces.
    Our mission is clear. We must be prepared to defend the 
homeland, to remain the preeminent military power in the world, 
and advance an international order that promotes security and 
prosperity.
    The strategy confronts the stark reality that the homeland 
is no longer a sanctuary. The strategy also requires each of us 
in the Department to drive budget discipline and affordability 
in order to ensure resources are directed to the highest 
warfighter requirements.
    Our budget priorities presented to you today establishes a 
foundation to rebuild the agility, resilience, readiness, and 
lethality of our Armed Forces.
    With a clear understanding of the strategy, we have set 
forth the following objectives that confront the challenges 
imposed by years of underfunded facility and infrastructure 
accounts.
    First, we are using every program and funding source 
available to eliminate waste in DOD [Department of Defense] 
infrastructure. We continue to advocate for adequate funding 
for installations accounts. We are protecting installations and 
ranges from incompatible development, and improving combat 
credibility of our Nation's test and training ranges.
    We are enhancing our energy security. We are exploring new 
opportunities for third-party partnerships. We are working with 
our military engineer and contracting communities to develop 
smarter contracts and to execute our contracts smartly. We 
continue to provide for the welfare of our people and resources 
through unparalleled environmental stewardship, and 
occupational safety programs.
    And most importantly, we continue and will continue to 
collaborate with the hundreds of defense communities around the 
country who support our bases and provide for our troops and 
their families. I can't emphasize that last point enough. These 
guiding principles will allow us to provide the resources 
requested in this budget to achieve real results.
    The requested $10.5 billion in military construction in 
family housing programs makes significant progress in 
recapitalizing facilities, but this year's funding, as you both 
pointed out, will not fully reverse the impact of 6 years' 
sequestration.
    We currently have an unfunded maintenance backlog exceeding 
$116 billion. Twenty-three percent of the Department's 
facilities are in poor conditions. Another 9 percent are in 
failing condition. My frank assessment to you today is it may 
be too costly to buy ourselves out of this backlog. We must 
work to remove unneeded capacity in order to fund higher 
priorities.
    As noted in National Defense Strategy, we continue to 
reduce excess infrastructure and will work with Congress for 
options for base realignment and closures.
    These efforts will be enhanced by a careful evaluation we 
are undertaking of how and when we base new forces and new 
capabilities.
    For example, the basing of new hypersonic systems, 
autonomous vehicles, cyber forces, will have an impact on their 
lethality. Likewise, there are station implications in the 
training and deployment of directed energy programs, electronic 
warfare and artificial intelligence programs.
    In lieu of another request this year to authorize a BRAC 
[base realignment and closure] round, we are reviewing our 
facility usage. For instance, we must ensure the facilities 
that were sized for 100 personnel actually have 100 personnel 
in them. We also have proposed increased efforts to demolish 
our facilities we don't need. We are reducing leases in order 
to move back to on-base and into facilities.
    Our efforts will get us part of the way, but we need your 
support for fair, objective, and transparent process for future 
base realignments and closures.
    We are facing other challenges head on. We are managing the 
impact of increased cost of labor and materials resulting from 
adverse weather around the country experienced last year on our 
military construction execution.
    We are proactively improving MILCON project delivery and 
contract management processes to deliver power projection 
projects on schedule and within budget.
    Given the risks documented recently by the Department of 
Homeland Security, the Department's energy programs are focused 
on energy security for critical facilities.
    We appreciate your support for the energy resilience and 
conservation improvement program, to improve infrastructure 
resilience while still maintaining a payback. We are also 
urgently identifying resources to improve the cyber protection 
of our facility-related control systems.
    The Department's environmental budget supports activities 
ranging from managing critical habitats to addressing drinking 
water health advisories to making the best use of limited 
cleanup dollars.
    We are committed to reduce a $27 billion backlog, which is 
the second in the entire DOD inventory, while sustaining our 
reputation as the Nation's premier steward of natural resources 
and cultural assets.
    Our warfighters also need access to unencumbered land, 
water, and airspace to hone their readiness and lethality 
without compromising health and safety. We are heavily engaged 
with other Federal agencies to provide larger and more 
realistic air and sea ranges with less maneuver restrictions to 
better simulate battlefields and threats around the world. Our 
commitment is to provide combat-credible test and training 
ranges.
    In summation, Mr. Chairman and Ranking Member, we have both 
challenges and opportunities in support of our new National 
Defense Strategy. We have a determined sense of urgency to 
achieve results now, knowing that each achievement deters 
aggression by our adversaries.
    We appreciate congressional support for our military and 
look forward very much to working with you on our priorities. 
Thank you.
    [The prepared statement of Secretary Niemeyer can be found 
in the Appendix on page 36.]
    Mr. Wilson. And thank you very much, Secretary Niemeyer.
    We now proceed to Secretary Phyllis Bayer. And please 
proceed with your opening statement.

STATEMENT OF HON. PHYLLIS L. BAYER, ASSISTANT SECRETARY OF THE 
 NAVY FOR ENERGY, INSTALLATIONS AND ENVIRONMENT, DEPARTMENT OF 
                            THE NAVY

    Secretary Bayer. Good afternoon, Chairman Wilson. Thank 
you. Ranking Member Bordallo, other members of the committee, 
it is an honor to appear before you today to testify on the 
readiness of the Department of Navy's energy, installations, 
and environmental portfolio.
    I have had the honor and the privilege of serving in this 
position for about 8 weeks. And while I am by no means fully up 
to speed on all the issues affecting our infrastructure, our 
facilities, and our ranges, I have had the opportunity to visit 
several installations and witness firsthand many of the 
challenges that our installation professionals are facing.
    More importantly, my visits have confirmed my appreciation 
for the strategic importance and the contributions to readiness 
that our installations provide.
    I strongly believe that readiness begins at our 
installations, and I understand that my job is all about 
delivering readiness to the fleet and the operating forces.
    I want to start by first thanking you as well for all your 
support for the fiscal year 2018, the omnibus bill, and we ask 
for your continued support for the President's fiscal year 2019 
budget.
    While these additional appropriations are important, and 
they are very helpful, they won't solve all of our 
infrastructure problems and the facility-related problems that 
we have. We have more work to do to properly maintain 
facilities and modernize our infrastructure to deliver 
readiness better, faster, cheaper, and in full support of the 
National Defense Strategy and in support of Secretary Mattis 
and Secretary Spencer's priorities.
    Thank you also for the new authorities that you have 
provided us. Congressman Bordallo mentioned those. These 
authorities give our base commanders the flexibility they need 
to modernize these infrastructures and they can make smart 
business decisions with greater options available to them. It 
helps them to be more creative, and that is a good thing.
    You have a copy of my written detailed statement; however, 
I would like to highlight three areas where I am working to 
improve installation readiness.
    First, in the area of safety, and then I will touch briefly 
on energy and our environmental programs.
    The strength of our Navy and Marine Corps team resides in 
the incredibly talented community of over 800,000 sailors, 
Marines, and the civilians and the contractors that support 
them. And I am truly honored to represent them and to support 
them here today.
    I care about the safety and the health of each and every 
one of them. Our operational environment is obviously 
inherently dangerous; however, we must always do everything 
that we can to ensure that their working environments are safe.
    I am committed to enhancing the Navy and the Marine Corps 
culture of safety and to leverage best practices to do so. The 
gold standard is that of the OSHA, the Occupational Safety and 
Health Administration's Voluntary Protection Program [VPP].
    It is a program of which I am personally a very big fan. 
This is a proven effective program that focuses everyone's 
attention on safety in the workplace, and it works. It keeps 
our people more safe from mishaps. And I am encouraging all of 
our installations to enroll in the VPP program to generate a 
vivid, persistent awareness on safe work practices. A safer 
workplace will improve our ability to deliver more readiness to 
the force.
    In our energy program, we are working to improve our 
ability to deliver readiness by making installations more 
resilient against threats and vulnerabilities, cyber attacks, 
power interruptions or disruptions.
    Our focus is sharp and we are working to ensure that the 
critical facilities have the appropriate backup power supplies, 
often using public-private partnerships that leverage the use 
of other people's talent and money, to ensure that our 
installations are fortified to deliver readiness.
    Regarding our commitment to being good stewards of the 
environment, we continue to make progress in the area of 
natural and cultural resource management programs, and in one 
area that I know is on the minds of many, is that of emerging 
contaminants.
    I want to assure you that I am fully committed to 
transparency and to keep you and your staffs and your 
committees--your communities, forgive me, who are our 
neighbors, fully informed as we address this issue and ensure 
safe drinking water for all.
    Lastly, I want to ask for your support in an important 
area, and that is protecting our test and training ranges from 
encroachment.
    Today, these ranges face all forms of encroachment. 
Development, crowded areas, even frequency spectrum. And the 
Earth is getting more crowded every day. And it is critically 
important that our sailors and Marines have these ranges where 
they can practice realistic training and where we can conduct 
testing in realistic conditions. And when I say ``realistic,'' 
that is an environment that is as similar to the combat 
environment that we can possibly make it, so that sailors and 
Marines can gain the confidence they need and they can be ready 
for the next fight.
    Many of our ranges, land, over the sea, under the water, 
are threatened by encroachment. These are complicated matters, 
and they require collaboration and discussion. And while we 
strive to be compatible with our neighbors, we must always 
ensure that these valuable national assets are protected and 
not further impacted by encroachment.
    In closing, I realize that the past funding levels forced 
our leadership to focus only on the most important operational 
requirements as Congresswoman Bordallo mentioned, and that was 
the right thing. However, it did come with a great impact to 
our shore infrastructure. We have a lot of challenges, and we 
have a lot of issues, and they are complex. But I am excited to 
face the challenges, with your help.
    I look forward to working with each of you to make this 
happen. And I appreciate your time, and I look forward to your 
questions. Thank you.
    [The prepared statement of Secretary Bayer can be found in 
the Appendix on page 60.]
    Mr. Wilson. And thank you very much, Secretary Bayer.
    We now proceed to Secretary John Henderson. Please proceed 
with your opening statement.

STATEMENT OF HON. JOHN W. HENDERSON, ASSISTANT SECRETARY OF THE 
AIR FORCE FOR INSTALLATIONS, ENVIRONMENT AND ENERGY, DEPARTMENT 
                        OF THE AIR FORCE

    Secretary Henderson. Chairman Wilson, Ranking Member 
Bordallo, and distinguished members of this committee, I am 
honored to represent our American airmen who honorably serve 
our Nation, and to discuss the Air Force's fiscal year 2019 
energy, installations, and environmental budget request.
    I have submitted my full written statement for the record, 
but I would just like to hit a few key points today.
    The Air Force fiscal year 2019 President's budget request 
for infrastructure totals $8.75 billion. In our request, 
National Defense Strategy priorities to restore readiness and 
cost-effectively modernize continue to drive difficult choices 
across our portfolio.
    These choices are necessary to build a more lethal and 
ready force. Consequently, we chose to accept risk by deferring 
some infrastructure funding requirements in a deliberate effort 
to provide the increased funding necessary to accelerate 
modernization and restore full combat readiness.
    To mitigate this risk, we are proactively leveraging an 
asset management framework to ensure that we are focusing our 
resources on the right facilities, at the right time, with the 
right scope of work. To this end, we are developing analytic 
tools to process huge amounts of data into predictive metrics 
which will help improve the timeliness and prioritization of 
our future infrastructure investments.
    We are also reforming our business processes to incorporate 
economies of scale across the infrastructure portfolio. Our 
intent is to significantly reduce the cost and time required to 
complete infrastructure projects, while also expanding our 
overall capacity to deliver when there are funds available.
    We continue to use innovative funding tools like enhanced 
use leases, public-private partnerships, and energy savings 
performance contracts to support our mission, our airmen, and 
their families. Looking ahead, we plan to use the additional 
authorities provided to us in the fiscal year 2017 and fiscal 
year 2018 NDAAs, which will further assist us in managing our 
infrastructure more effectively.
    Our 2019 budget request includes $1.78 billion in military 
construction funds to support urgent combatant commander 
requirements, the beddown of the F-35 and KC-46, Presidential 
aircraft recapitalization, research and test facilities 
modernization, and other mission-critical requirements.
    Our budget also requests $3.36 billion in facilities 
sustainment, restoration, and modernization; $2.45 billion to 
operate existing facilities; $395 million for military housing; 
and $680 million to support environmental compliance and 
restoration.
    In total, our fiscal year 2019 infrastructure budget 
request represents a strategic balance for capability and 
capacity, and ensures that we are best postured to field a 
ready and lethal force today while concurrently modernizing for 
the challenges of tomorrow.
    On behalf of our Air Force, please accept our sincere 
thanks for your demonstrated support to the Bipartisan Budget 
Agreement which provides much-needed budgetary relief in fiscal 
year 2018 and fiscal year 2019, and also provides funds for 
military construction projects that were on our unfunded 
priority list.
    Thank you again for the opportunity to testify today, and I 
look forward to your questions.
    [The prepared statement of Secretary Henderson can be found 
in the Appendix on page 69.]
    Mr. Wilson. Thank you very much, Secretary Henderson.
    We are grateful now to proceed to the last witness, Acting 
[Assistant] Secretary of the Army for Installations and 
Environment, Mr. Jordan Gillis. And please proceed with your 
opening statement.

 STATEMENT OF JORDAN GILLIS, ACTING ASSISTANT SECRETARY OF THE 
 ARMY FOR INSTALLATIONS, ENERGY AND ENVIRONMENT, DEPARTMENT OF 
                            THE ARMY

    Mr. Gillis. Thank you, sir. Chairman Wilson, Ranking Member 
Bordallo, and distinguished members of the committee, thank you 
for the opportunity to discuss the installations, energy, and 
environmental component of the Army's fiscal year 2019 budget 
request.
    Let me first reiterate what Mr. Niemeyer said in that we 
appreciate all the hard work behind the Bipartisan Budget 
Agreement of 2018, and are grateful for the resources that will 
allow us to begin to recover from the effects of sequestration.
    The Army's number one priority is readiness. Army readiness 
begins on Army installations. We will use our funding to 
address readiness by prioritizing our investments where we 
believe we will see the greatest returns and contribute to 
increases in readiness.
    In the near term, sustainment, restoration, and 
modernization investments will help address the number of 
facilities we have in poor and failing condition, and make sure 
that current facilities meet the needs of the force.
    More medium-term investing in MILCON will provide new 
facilities where required. And underpinning it all, investing 
in energy resilience and addressing our environmental 
obligations will help ensure we have the installation and land 
resources we need to train, fight, and win our Nation's wars.
    Thank you for the opportunity to come before you today and 
for your continued support of the soldiers, civilians, and 
families of the Army. I look forward to working with you and 
your staffs on this in future years' requests, and I look 
forward to your questions today.
    [The prepared statement of Mr. Gillis can be found in the 
Appendix on page 90.]
    Mr. Wilson. Whoops. Thank you very much for being here 
today. And I haven't seen somebody so brief in so long. Thank 
you very much. But I would like to remind each of the 
subcommittee members that we will adhere to the 5-minute rule 
for questions of the witnesses.
    Beginning with me, and fortunately, we have the leadership 
of a professional staff member, Andrew Schulman, who will keep 
the time. And so beginning right now, Secretary Niemeyer, I 
want to thank you for being here today, and I would like to 
recognize your many years of service in the Senate as a 
professional staff member and especially your service as an Air 
Force officer. And we are grateful to have a veteran of your 
distinction and your experience in the Pentagon.
    We thank you for all that you have done, and continue to do 
for our Nation. Even before I get to my first question, 
something that got my attention that you testified was about 
destructive weather. And last year, and this, any of you, if 
you know what might have occurred, but with the hurricanes that 
we had last year that were devastating, whether in the Gulf of 
Mexico or on the East Coast, is the government self-insured and 
what were the costs of recovery?
    Secretary Niemeyer. So we submitted an amendment for 
emergency appropriations. I don't have the exact dollar amount. 
It went into repair facilities. I can get that for the record.
    [The information referred to can be found in the Appendix 
on page 103.]
    Secretary Niemeyer. We still continue to recover down in 
Puerto Rico, particularly military installations there, and, to 
some degree, in Florida. We are in pretty good shape from an 
operational perspective. As you know, also, the Corps of 
Engineers is involved in the restoration of power in Puerto 
Rico. That particular part is being worked directly between 
FEMA [Federal Emergency Management Agency], the Corps, and the 
White House on the restoration of power.
    But for us, we are in pretty good shape from an operational 
perspective. We think we got the funding we needed. We still 
have some repairs we need to do, but we are recovering well. My 
concern was more the budget climate, the bid climate. There is 
a lot of work going on down there and the concern is it is 
going to drive our bids up in other places in the country.
    Mr. Wilson. Well, thank you for addressing that. And 
additionally, thank you for raising, obviously, the Caribbean 
and how important that is.
    Secretary Niemeyer. Absolutely.
    Mr. Wilson. And the installations, whether in the Virgin 
Islands or back over to Puerto Rico. But do you have everything 
else? I am going to get----
    Secretary Niemeyer. No worries.
    Mr. Wilson [continuing]. A question. You have so much to be 
thinking about, and then you have that on the side. So how 
incredible.
    And we recognize it may not be practical to ever provide 
enough funding to eliminate the growing need of backlog for 
maintenance of facilities and repairs while simultaneously 
constructing modern facilities to emerging warfare 
requirements. This is where I think innovation has to play a 
key role.
    The Congress has enacted numerous provisions over the past 
few years targeted at accelerating and expanding your 
authorities to execute construction and repair projects in a 
timely and cost effective manner.
    Could you speak at a strategic level on your priorities and 
your plan of action to ensure the maximum return on the limited 
facility investments that you are able to bring to bear? Also, 
is there anything that Congress can do to help you in achieving 
those priorities?
    Secretary Niemeyer. I think my fellow witnesses thanked 
this committee, particularly, for taking the lead over the last 
few years on allowing some flexibility in how we could use 
operation and maintenance funds, to be able to address some 
repurposing of buildings. We think that is absolutely stunning 
to be able to do that. It allows us to be much more effective 
in how we use our infrastructure and how we can then reuse our 
infrastructure. I want to thank the committee for that.
    We did get some additional authorities for using funding 
for restoration of our labs. That is fantastic. And we are 
moving, not as quickly as we would like to on that, but we are 
starting to get some traction on some of those projects.
    As far as new authorities, Congressman, I would love to 
work with you and your staff. There are a lot of things I have 
got ideas on, and I think there are ways we can provide 
flexibility.
    My concern, overarching concern, is to maintain commitment 
to the American people, that we put our dollars towards the 
highest priorities. And that is, that is going to be tough to 
do right now. We do have some challenges in front of us that we 
have to--we were given a short amount of time--in our operation 
and maintenance accounts before they expire here on September 
30th.
    So we are working very diligently to try to provide as much 
flexibility in the contracting world to allow us to have, to be 
able to carry out projects in the next 5 months to address 
those readiness needs.
    So I don't necessarily need anything legislatively right 
now, I just need to be able to execute. And that is what I am 
working on.
    Mr. Wilson. Well, I am encouraged by the flexibility of all 
of you, and particularly proactively demolition, mothballing, 
whatever can be done to facilities usage so that, to the 
benefit of the taxpayer and to our military and military 
families. So thank each of you. And I now proceed to 
Congresswoman Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Mr. Chairman, I hope this doesn't count against my 5 
minutes, but I would like to take a moment to acknowledge 
members of the Guam Chamber of Commerce, who have just arrived. 
They are members of the Armed Forces Committee and they are 
here all week with members and staff who are advocating for 
programs that support our military and enhance the security.
    Would you kindly stand? I guess there is just two of them. 
They are at other meetings.
    One is the chairman of the Armed Services Committee and the 
other is the President of the Guam Chamber.
    Thank you very much.
    Mr. Wilson. We are delighted that Joe and Ms. Castro are 
here, so best wishes. And, indeed, now your time begins.
    Ms. Bordallo. All right. Thank you.
    I lost my place. I was so excited.
    All right. Again, thank you, Mr. Chairman, for my time 
here. And my first question is for Mr. Niemeyer. And I want to 
thank him for meeting with the Chamber yesterday.
    Secretary Niemeyer. Yes, ma'am.
    Ms. Bordallo. They were very, very elated after the meeting 
with you. You gave them hope for the advancement of our 
military buildup on Guam. Thank you very much, Lucian.
    Secretary Niemeyer. Yes, ma'am.
    Ms. Bordallo. My first question is, the 2006 Defense Policy 
Review Initiative includes the relocation of 5,000 Marines from 
Okinawa to Guam by 2026.
    Now, as you know, the construction industry in Guam relies 
on workers hired under the Immigration and Naturalization Act 
H-2B program [U.S. Department of Labor hiring program] from 
nearby countries. Without the H-2B workers, the buildup will 
face significant challenges and postponements.
    So I included a provision in last year's defense bill to 
help address the workforce issue on Guam and am currently 
working on additional language in this year's bill.
    So with that in mind, please confirm that the realignment 
of Marines to Guam remains a priority for you in the Department 
of Defense, and moreover, does the Department support 
additional legislation to ensure a sufficient construction and 
healthcare workforce is available on Guam to support this 
realignment?
    Secretary Niemeyer. Yes, ma'am. I really appreciate the 
question.
    I have been in this position for 8 months. Within the first 
3 weeks of me assuming this position, I was on a plane to Guam, 
spent a few days there. Once again, I have been there plenty of 
times as you know, making sure that our plans are on track and 
we are addressing the issues. And I spent some time with both 
the Governor and some other DOD officials making sure what is 
the impact we are having of recent changes in policy on visa 
restrictions.
    Your work last year was stellar in allowing us at least to 
free up some visas. I am talking to Governor Calvo's staff, I 
think we are starting to see a little flexibility starting to 
break free. As you know, we share your concern that it did not 
go far enough. We are still committed to a One Guam approach, 
that what we are working with the Department of Defense not 
only affects our national security on Guam but also works with 
our neighbors, our community, too.
    So we fully support, we know you have another bill pending. 
And hopefully we will see that through to expand that visa 
requirements or some of the, extend the visa H-2B program to 
include other than just support for military construction. We 
believe the entirety of the Guam economy, a vibrant Guam 
economy is actually a national security priority and we support 
you on that.
    Ms. Bordallo. Thank you, Assistant Secretary. This means a 
great deal for us. We have been at this since 2003 so it has 
been a long, long time, and we are now progressing.
    My next question is for Assistant Secretary Bayer. I had 
the opportunity to meet with her the other day. And she, too, 
is very supportive of our move to--the Marines to Guam. So I 
want to continue. My question to you, Secretary Bayer, is to 
monitor the progress of the MEC [munitions and explosives of 
concern] clearance operations, and its impact on the costs and 
the schedule of military construction projects on Guam.
    While I noted late last year the Navy issued waivers for 
three specific projects, these waivers were for projects that 
were either completed or nearly so, and the committee continues 
to remain concerned about the progress and the Navy's way 
ahead.
    So can you please provide an update on the steps the Navy 
is taking to reduce the impact to the cost and the schedule of 
military construction projects?
    Will you also commit to working with all stakeholders to 
minimize the impacts of the MEC clearance requirements on the 
Marine Corps relocation to Guam?
    Secretary Bayer. Yes, ma'am, Congresswoman Bordallo, 
absolutely. I will answer your second question first. Yes, you 
absolutely have my commitment to work and stay focused on the 
cost and the schedule.
    This is an important issue for a lot of us over here on 
this side of the table. Just last week, Mr. Henderson asked us 
for some help on trying to expedite progress on construction. 
And we got together and had a very good discussion on the very 
latest of what is going on with the munitions of explosive 
content, with the MEC.
    What we have learned is that some additional people have 
been added to the workforce there, so we think that that is 
going to be a big help. I shared that with you in the office 
the other day. And what we also learned is that the explosives 
safety survey that was being used for the clearance process is 
being updated.
    And not only that, it is being updated for 16 areas, which 
we think the survey now is going to give better fidelity to the 
people on the ground so that they can give the information to 
the construction workers quicker, and they can clear areas 
faster.
    So we are focused on it, as is Mr. Henderson, and you have 
my commitment to continue to do so.
    Ms. Bordallo. Thank you very much. And I only have 6 
seconds left. So will there be a second round, Mr. Chairman?
    Mr. Wilson. Yes, ma'am.
    Ms. Bordallo. Thank you. And I yield back.
    Mr. Wilson. Thank you, Congresswoman Bordallo. We now 
proceed to Congresswoman Elise Stefanik of New York.
    Ms. Stefanik. Thank you, Mr. Chairman.
    As all of our panelists noted today, movement of troops and 
materials is vital to our national security. And I have some 
concerns at a base that I represent, Fort Drum, which is an 
Army installation in New York's 21st District.
    We have inadequate rail lines. And that infrastructure is 
critical to supporting the necessary throughput of troops and 
materials and it is important for training. This is also 
important when it comes to European infrastructure where plans 
call for the movement of entire armored brigades via rail.
    How is this lack of capacity being mitigated and 
synchronized when it comes to our operations plans? Acting 
Secretary Gillis, I will go to you.
    Mr. Gillis. Thank you. I appreciate the question. So the 
Army has identified four power projection platforms, including 
Fort Drum, Fort Bliss, Fort Bragg, and Joint Base Lewis-McChord 
that have significant rail shortfalls that impact mission 
readiness.
    We are currently evaluating our power projection capacity 
in coordination with applicable operation plans through a 
recently established power projection working group. This 
ongoing review will enable an updated optimal investment 
strategy to modernize the Army's power projection platforms.
    Once we have completed and validated the results of that 
effort, we will certainly work to schedule a briefing for you 
and other committee members, as required. But power projection 
platform infrastructure requirements are nested in the Army's 
overall installation readiness framework. And we understand, 
for us as well as you, those are high priority items.
    Ms. Stefanik. Thank you for that. This is an extremely high 
priority, and particularly because Fort Drum is home to the 
10th Mountain Division, the most deployed unit in the U.S. Army 
since 9/11. It is a priority for our base. It is a priority for 
the Army. And I want to work to make sure that we can make that 
investment when it comes to our infrastructure and power 
projection.
    My next question is for Assistant Secretary Niemeyer.
    Another unique asset that we have at Fort Drum is a 
renewable energy facility. We have a biomass facility. It means 
the installation is 100 percent energy secure, and 100 percent 
renewable.
    I would like to hear your comments about that model and the 
strength of that model, and potentially taking that model and 
learning from it at other installations across the country.
    Secretary Niemeyer. Yes, ma'am. First of all, what you have 
done at Fort Drum, is, I think, eventually where we want to get 
to with the rest of the Department of Defense.
    We want to be able to ensure our own power supply that we 
could potentially, if we need to, come off the grid and 
continue to power our critical missions. So what you have done 
there is amazing, and it does serve the model of what both the 
Army and the Department of Defense is looking at.
    We do have some concerns moving forward on tying ourselves 
to a particular fuel source. As you know, we are running some 
challenges there with the biomass compared to the cost of 
natural gas. I think we are going to build off that and look, 
okay, where do we build some flexibility in there so we are not 
beholden to just one type of fuel generation source.
    And we will be looking to use that model around the 
country. We definitely are shifting our goals, for in the past 
we were really focusing on just renewable generation sources. 
We are now, open up the gates, whatever we feel is most 
effective, to provide us that energy security that Fort Drum 
has, and we are going to use any energy source.
    And so it was a great, great project, and we definitely are 
learning from it on how to make it even better as we move 
around the rest of the country.
    Ms. Stefanik. And just to delve a little bit deeper. As you 
are making that cost-benefit analysis, if your prioritization 
is making these installations energy-secure, I understand some 
of the cost concerns regarding the biomass facilities at Fort 
Drum, but it is the model for having long-term certainty and 
long-term security to make sure that these installations can 
have access to power when, you know, they are potentially off 
the grid.
    So how do you make that cost-benefit analysis? How do you 
go about that?
    Secretary Niemeyer. That is a fantastic question. And I am 
not sure I have the definite answer for you. When I first got 
into this position that was one of the things we asked 
ourselves: What is the cost of energy security? What are you 
willing to pay, 10 percent more, 15 percent more? Where does 
that get us to, 90 percent reliability, 95 percent? We are 
still wrestling with that. We are still working on a case-by-
case.
    I understand your position perfectly that we do have a 99.9 
percent reliability. What is that worth and above what we would 
be paying for market rate right now?
    Ms. Stefanik. And from my perspective, that is worth a lot. 
And the reason why it is worth a lot, is because we are looking 
at that as a model for other bases. So I just want to reiterate 
why this is an effective model at Fort Drum and why it is worth 
the investment. And with that, I have no further questions. 
Thanks.
    Mr. Wilson. Thank you very much, Congresswoman Stefanik.
    We now proceed to Congressman Salud Carbajal of California.
    Mr. Carbajal. Thank you, Mr. Chair. Mr. Henderson, I have 
the honor of representing Vandenberg Air Force Base.
    My question is in regard to the Air Force's decision to 
deactivate all Air Force firefighters that are nationally 
registered emergency medical technicians [EMTs] and firefighter 
paramedics by rendering their license to operate at medical 
emergencies as inactive.
    As I have indicated in my letter to Secretary Wilson, I am 
extremely concerned, not only about this decision but also the 
process that was utilized to come to this decision.
    It is my understanding that the Air Force established an 
emergency medical services working group comprised of nine 
members to address this issue. Eight members were from the 
surgeon general's office, and only one was from the fire and 
emergency services.
    This means eight out of nine members working in offices not 
directly involved in the emergency field made decisions that 
had to do with emergency services on base.
    I question as to whether this group had the emergency 
service experience to make such a decision to reduce the level 
of emergency medical care to the base population.
    For Vandenberg, this Air Force working group determined the 
base only needed a single $1 million ambulance contract 
covering a 97,000-acre Air Force base. Essentially, this single 
contract warranted the fire departments to be reduced to 
emergency medical responders.
    However, it is my understanding that this decision was made 
without so much as a site visit, or even a phone call to 
understand how enormous this base truly is. One ambulance 
cannot meet the 12-minute time response standard for ALS, also 
advanced life support, even 10 percent of the time much less 
the required 90 percent threshold.
    Areas such as major space launch complexes and missile 
defense authority sites on Vandenberg are out of reach for the 
single ambulance contractor.
    The Air Force decision to only require emergency medical 
responders certification is only setting the bar as low as 
possible, and it is absolutely unacceptable.
    Mr. Henderson, this decision is affecting bases nationwide. 
I just can't understand why the Air Force would want to take 
away such an important life-saving capabilities from bases.
    These firefighters already have EMT certifications. Why 
would you want to purposely go in and require EMR [emergency 
medical responder] certifications?
    Secretary Henderson. Thank you, Congressman. And first of 
all, I just, for the committee, I just want to say, the safety 
and health of our airmen and our families and the people who 
occupy our installations is of paramount importance to the Air 
Force.
    Since we discussed this yesterday, I just want to let you 
know that we heard you, and I understand the issues that you 
have raised, and I completely understand your dissatisfaction 
with the response that the Air Force provided you in March on 
this topic.
    After we talked yesterday, I went back and discussed this 
with our staff, and we went through some of the issues that led 
to that response and to this analysis. And what I have 
discovered with that is that there is some extremely important 
issues that you have brought up, and our solution to address 
them adequately is pretty complex.
    So what I would like to do, if it is okay with you, 
Congressman, is take this for the record, so that we can 
provide you an informed comprehensive response, because you 
raised several important issues there. Specifically about 
Vandenberg, but as you said, this has impacts across their 
enterprise on, specifically the accreditation for the 
firefighters and whether they need them or don't need them on 
specific installations.
    So I would go back and relook our process for doing that 
and look at the issues you raised and provide a response for 
the record, if that is okay.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Carbajal. Thank you, Mr. Henderson. I strongly urge the 
Air Force to stop the transition and reevaluate, as you have 
stated, the issue and actually talk to the individuals at the 
base before making further decisions. And I look forward to 
receiving your follow-up on this.
    Thank you very much. Mr. Chair, I yield back.
    Mr. Wilson. Thank you, Congressman Carbajal. We now proceed 
to Congressman Joe Courtney of Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman. Thank you to the 
witnesses.
    Mr. Niemeyer, I am trying to, again, understand the 
decision that was made to not proceed with BRAC, which again I 
think is a hard decision given the batting average over the 
last few years.
    Secretary Niemeyer. Zero.
    Mr. Courtney. Your testimony on page 16 again, you describe 
a process of examining usage, demolishing buildings, and then 
coming back to Congress with options.
    So given the fact that, I think, the Department always has 
the discretion to take down buildings or structures on bases 
and should, particularly ones that are out-of-date and 
inefficient, and that we just did have a report back from the 
Pentagon last October where, again, it was alleged 19 percent 
overcapacity.
    What are we going to be seeing, you know, during the course 
of this year into next year, you know, we will come back to 
Congress. Which, it sounds, you know, reading between the 
lines, that is the plan.
    Secretary Niemeyer. Right. So there was some concerns about 
the amount of excess capacity we provided in that report last 
year, 19 percent. It is really tough to go around the military 
and see 19 percent excess facilities. And it is tough inside 
the Department to say, look, that is a compelling reason why we 
need to go ahead and ask Congress for a base realignment 
closure authorization.
    As a military engineer my whole life, I realize that we 
need to do more work within the installations world to be able 
to more efficiently capture what is happening with our 
facilities.
    So what we have right now is during years of force 
drawdown, you had, what, a brigade used to be in five 
buildings? A brigade leaves. That remaining brigade spreads out 
into 10 buildings. It looks like it is a fully utilized base, 
but as an engineer, I know that those facilities are only being 
half-utilized. I am spending heat, I am spending electricity 
inefficiently trying to maintain a smaller force.
    So we are working right now in the Department through our 
reform initiative to work with the services. The Marine Corps 
is already underway. The Army has been doing it for a while and 
getting better at it. We are trying to get it to be an 
enterprise look, Okay, let's go back and making sure we are 
optimally occupying our facilities.
    And we are working very diligently on that effort. We are 
hoping that efforts like that, by being able to capture exactly 
where we have excess, is enough for us to be able to talk to 
the Secretary and then have the Secretary come over and talk to 
you about the fact we probably do need some type of prudent 
process moving forward.
    There is another aspect to this, Congressman. That is, from 
my perspective, BRAC is not just about saving dollars. Having 
been through the 2005 round when I was on the Senate Armed 
Services Committee, we can actually get stronger, we can get 
more ready, we can get more lethal by being able to consolidate 
forces, by being able to look at where we might have key 
realignments.
    We have emerging technologies. You know, we didn't have 
unmanned systems back in 2005, or very little of them. We 
didn't have cyber forces. So how do we lay in those new 
technologies onto our existing cold water basing structure. Do 
we even know what a base of the future really should look like?
    Those are the types of things that I would like to 
undertake. So we are taking a pause. We are looking at the 
National Defense Strategy. We would like to reevaluate to what 
degree we think moving forward base closures might help us 
carry out the defense strategy to become more lethal. But we 
are just, with the National Defense Strategy just coming out 2 
months ago, we weren't really, in good conscience, ready to ask 
Congress for an authorization for BRAC this year.
    Mr. Courtney. Well, I am impressed with that answer. I 
mean, it sounds like a very intelligent, smart way to, you 
know, weed out inefficiencies and excess. But it also sounds 
like a process that could take, you know, longer than one 
fiscal year or one calendar year. Right? I mean, there is 
something like over 300,000 structures, I think, in the U.S., 
according to one of your predecessors, as I recall vaguely from 
a prior hearing.
    But so and that does makes sense. If there is buildings 
that should be either abandoned or taken down, you don't need a 
BRAC to do, you know, individual structures.
    So I guess, again, the question is, so is the next 
Congress, you know, in early 2019 going to get some--is that 
when you sort of foresee reporting back in terms of a cleaner 
analysis?
    Secretary Niemeyer. I owe some analysis and some data back 
to the Secretary of Defense, and then I will allow the 
Secretary of Defense to make that call where we go from there. 
Right now, I am working those questions back to the Secretary.
    Mr. Courtney. All right. Thank you. Well, again, I think 
that sheds a lot of light for all of us, in terms of, you know, 
again, an issue that, and this committee obviously is very 
sensitive. So thank you. I yield back.
    Mr. Wilson. Thank you very much, Congressman Courtney. We 
now proceed to Congressman Anthony Brown of Maryland.
    Mr. Brown. Thank you, Mr. Chairman.
    My question is for Mr. Niemeyer. I have a few questions for 
other panelists, but I will start with Mr. Niemeyer.
    It is my understanding there is about $70 billion of 
backlog in infrastructure across all the services. Does that 
sound about right?
    Secretary Niemeyer. We calculate, we throw in a bunch of 
different factors. We are up over, actually over $100 billion.
    Mr. Brown. Yeah. Big number.
    I want to follow up on some of the, I think your responses 
to some questions on the Senate side regarding the border wall 
which, for the purposes of this hearing, I will just refer to 
as the southern border boundary.
    You said that there is--is there an intent to build a 37-
mile barrier along the Barry Goldwater Range?
    Secretary Niemeyer. There is an exploration of what options 
we have for supporting the President's plan. We have not made 
any decisions. We are still in just the exploration of options. 
If those options are executed, we would want to come back to 
Congress, explain what we think we can do, if we can do it, and 
work with Congress in making sure what can be done.
    Mr. Brown. So then maybe I can test your current 
understanding.
    Secretary Niemeyer. Sure thing.
    Mr. Brown. You understand that there is not a specific line 
item authorization for the Department to construct a border 
barrier at this time?
    Secretary Niemeyer. We have the fiscal year 2018 omnibus 
appropriations bill provided $1.6 billion for----
    Mr. Brown. I apologize.
    Secretary Niemeyer [continuing]. Certain replacements and 
upgrades along the 1,800- or 1,900-mile border.
    We know that is all we have right now.
    Mr. Brown. Right. Do you think $1.6 billion would cover the 
37 miles?
    Secretary Niemeyer. Right now, I believe that those funds 
are dedicated to other segments of the border.
    Mr. Brown. So regarding the 37 miles, you understand that 
there is not specific line item authorization currently from 
Congress to the Department to construct a barrier?
    Secretary Niemeyer. Yes, sir.
    Mr. Brown. Okay. There is a minor construction program, I 
am sure you are familiar with. What is the threshold for that 
under which you don't need authorization?
    Secretary Niemeyer. Well, the minor construction threshold 
is, I believe, $3 million currently, but that is not an 
authority that we would want to consider here.
    Mr. Brown. Right. That is insufficient to do anything.
    Secretary Niemeyer. There are other emergency authorities 
that require certain levels of either coordination or 
proclamations that we are aware of.
    Mr. Brown. What is the maximum amount that you can do under 
the emergency construction?
    Secretary Niemeyer. Well, under section 2803 the max per 
year is $200 million per year.
    Mr. Brown. Right.
    Secretary Niemeyer. And then there is another authorization 
for national emergencies that does not have a dollar limit.
    Mr. Brown. Right. So it is my understanding that in order 
to access that authorization, emergency authorization, you 
would have to identify another project that is authorized and 
appropriated by Congress from which to take that money, 
correct?
    Secretary Niemeyer. Not necessarily. We could draw funds 
from what we call unobligated balances.
    Congress provides us, and thankfully so, the flexibility to 
manage our overall military construction program. So when bids 
come in less than they should be, we have now that delta, we 
then put aside to see if we can fund--if we have a bid overage, 
we can go and fund that.
    Mr. Brown. What is the current amount of that----
    Secretary Niemeyer. Sir, I would have to get that for your 
record right now what we have for prior and obligated balances. 
It shifts from month to month as far as----
    Mr. Brown. Is it in the billions?
    Secretary Niemeyer. I don't know if it is quite there yet. 
The appropriators do a good job of trimming it every year.
    Mr. Brown. I hope you do. I hope they do. I appreciate it, 
sure, if you could get back to me on what that is.
    Secretary Niemeyer. Yes, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Brown. And maybe in writing, if you can outline the 
response that you just provided me.
    Secretary Niemeyer. Sure thing, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Brown. And your most current thinking about the 
authorizations and the appropriations that you would consider 
in a building, some or all of that 37-mile barrier at the Barry 
Goldwater Range.
    Thank you. Let's see, another question. I am electronic 
today.
    Mr. Niemeyer, certain financial institutions, banks, not 
credit unions, but banks, can occupy space, commercial office 
space on military installations. And it is my understanding 
that in lieu of a lease payment, they can make an in-kind 
contribution.
    Last year, I believe, or certainly subsequent to this 
year--I mean, prior to this year, Congress instructed the 
Department to clarify what an in-kind contribution could 
consist of. And we were supposed to receive that information on 
March 1st of this year. To my knowledge, we have not received 
it. Could you tell me the status of that?
    Secretary Niemeyer. Sure thing. So we have been working on 
this issue very diligently within the Department of Defense. I 
have had a couple of meetings on how we define that. I have 
actually got a draft report ready to go. I had some questions 
from my general counsel on that particular report. As soon as 
those questions are clarified, we will be writing to Congress. 
And I apologize for being late on that.
    Mr. Brown. Just one follow-up, Mr. Chairman. Do you think 
it will be before we mark up this year's NDAA?
    Mr. Niemeyer. That is my goal.
    Mr. Brown. That is your goal.
    Okay. I yield back, Mr. Chairman. Thank you.
    Mr. Wilson. Thank you, Congresswoman Brown.
    We now proceed to the second round of questions.
    And Secretary Niemeyer, you have come up again. And since 
the inception of the extraordinarily important European Defense 
Initiative, the Congress has provided nearly $600 million to 
support the construction in Europe to prepare for EDI.
    The fiscal year 2019 request includes nearly $800 million 
in additional funding dedicated to infrastructure in Europe 
under the European Defense Initiative. This is for roads, for 
bridges. It is upgrading railway, and maybe particularly to 
take into account the different gauges between the rail systems 
of what was the former Soviet empire and the rest of the world. 
And also, what we are looking for is a positive model in the 
tradition of the success of Kaiserslautern, Germany.
    What does the end state of EDI construction look like? Does 
the Department have an overall master plan for the European 
theater working with the European Union?
    Secretary Niemeyer. So this program is absolutely 
essential. As you know, the Secretary of Defense laid out three 
overall priorities: restore the readiness of our forces, 
strengthen alliances around the world, and this program goes 
directly to his second priority. His third priority was reform 
how we do business in the Department of Defense.
    But we are absolutely committed. This program has been 
beneficial to us with our nations in Europe, and will continue 
to allow us to have the flexibility with our partner nations to 
respond to whatever contingency or scenario may happen there.
    As far as long-term plan, you did put some language in the 
fiscal year 2018 defense authorization asking the Department to 
come back with a 5-year plan, and how we plan for future 
investments. We are working to get that over to you. It is 
really in our policy shop within the Department of Defense, and 
we will be scheduling a time with you and your staff here in 
the near term to go over what we believe are long-term plans.
    I can't tell you what the end state is going to be. EUCOM, 
I am sorry, European Command is the primary generator of 
requirements. As relationships evolve, as nations in NATO 
[North Atlantic Treaty Organization] change their posture, our 
requirements may either go down or go up. We are constantly 
reevaluating those projects, making sure we're executing them 
on time, and then as new projects arise, we are vetting them 
through our DOD structure, to determine, okay, what degree they 
provide support for the Secretary's priorities.
    So I would like to take, as far as coming over to you with 
the plan, I would like to take that for the record and then be 
able to answer more questions, potentially in a classified 
setting.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Wilson. Well, thank you very much. This is really so 
important. I am very grateful, as the cochairman of the 
European Union Caucus, to see the cooperation between the 
American military, the European Union, and NATO. So, this is 
absolutely critical for the deterrence and peace through 
strength in Europe.
    I now proceed to Congresswoman Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Each of the Secretaries this afternoon have stated that 
their top priority is the recovery of military readiness, and 
we all agree. But as I pointed out in previous hearings, the 
increases in this year's budget request appear focused on 
buying new weapons systems, new equipment, rather than 
sustaining the systems and the facilities that we own today.
    So, with infrastructure in particular, I believe the 
Department has taken far too much risk over the past decade.
    So, can you comment on whether you believe this budget 
adequately invests in your service's military infrastructure 
and how it will support the recovery of installation readiness, 
along with the overall readiness of the force?
    And I think I would like to start with Secretary Gillis. We 
haven't asked you any questions yet.
    Mr. Gillis. No, I really enjoy testifying alongside Mr. 
Niemeyer. That has worked out well for me so far.
    Ms. Bordallo. He is so adequately experienced in every 
area.
    Mr. Gillis. Well, thank you. I appreciate the question for 
a change. And I share your concern.
    The choices that the Army made were a result of 
sequestration in the Budget Control Act, and we made the choice 
that we had to make between readiness and facilities.
    I believe now, with the funding in 2018 and 2019 projected, 
that we are on a much better track. For 2019, our facility 
sustainment, restoration, and modernization request reflects a 
$196 million increase above our 2018 request.
    Based on that and requested funding across all the 
appropriations, the Army plans to address about 8 percent of 
the $11 billion backlog that we have talked about in 2019 and 
ultimately buy that $11 billion backlog out over the course of 
12 years. In addition, our 2019 MILCON budget request is $234 
million over and above our 2018 request.
    We believe we are on the right track, but I understand your 
concerns about the condition of facilities.
    Ms. Bordallo. And Secretary Henderson.
    Secretary Henderson. Thanks, Congresswoman.
    So, for the Air Force, much like the Army, due to the 
sequestration for the last several years and several of the 
must-fund requirements that the Air Force is responsible for, 
not all those requirements took the same hit under 
sequestration, and some of our support funding mechanisms, 
especially infrastructure, took an inordinate hit over the last 
4 or 5 years.
    And so now, as you know, we are probably at an estimated 
$33 billion or $34 billion of backlog for deferred maintenance 
and costs to our facilities. As Mr. Niemeyer alluded to 
earlier, I just don't think there is a way we are going to buy 
our way out of that.
    A couple of things that we are doing for a way ahead on 
this. First, you will see in the fiscal year 2019 budget, we 
have asked for a 7.7 percent increase in the sustainment part 
of our facility sustainment, restoration, and modernization. 
This is a $209 million increase, and this will, at least, keep 
the good facilities good.
    So the essence of your question was: Is the funding 
adequate? I would say it is adequate, but it is certainly not 
enough to buy down the backlog of deferred maintenance that we 
have. But by keeping up with the sustainment, you know, every 
dollar we defer in sustainment turns into $15 of work later. So 
we are trying to keep up with that for sure.
    Secondly, we have substantially increased our planning and 
design funds this year so that we can increase our capability 
to ask for more money for infrastructure in fiscal year 2020 
and 2021 to meet our facilities requirements there and start to 
potentially grow, get back at that backlog if the funds are 
available then.
    Third, we have maximized or accelerated our use for 
enhanced use leases, public-private partnerships, and the new 
authorities given to us by Congress. So thank you for that. I 
have several examples of that that we can discuss maybe in 
follow-on questions.
    Ms. Bordallo. Thank you.
    Secretary Henderson. We are also leveraging an asset 
management framework that really focuses on the right 
facilities at the right time at the right scope. We are 
rethinking our acquisition strategy.
    And so, it is a tough situation that our mission support 
community is dealing with right now, but we have a great team 
of engineers and installation managers and acquisition folks 
and sustainers that are continuing to keep our power projection 
platforms intact, while the bigger Air Force accelerates the 
modernization and lethality that we need to fight a high-end 
war.
    Ms. Bordallo. Mr. Chairman, I would like to hear a quick 
response from Secretary Bayer and Lucian.
    Secretary Bayer, if you would care to answer.
    Secretary Bayer. Absolutely, ma'am. We are in about the 
same situation as you have heard there, obviously.
    One of the things, there is a lot of backlog, and I agree 
that there are probably places that we would eventually say we 
are going to just cut our losses there. But we are focusing our 
priorities of where we feel like our priorities are needed. So 
that is about the smartest thing we can do when we don't 
obviously have all the money in the world to take care of 
everything as best as we would like to.
    I would say one of the things that I am most excited about 
is the ability to use the conversion authority. I saw in one 
place--I think you would be interested in this--where a base 
commander looked at a facility that he wanted to use for ship 
repair that was near the berth, and it was being used for 
something else. So he moved the function of that building to 
another building. He swapped it. And then he used that 
authority that you all gave us to repurpose that building to 
perform the function that he needed to be closer to the berth.
    So these are things that I am excited about being able to 
put the money where it is needed the most, and it gives our 
base commanders what I mentioned earlier in my statement, the 
opportunity for creativity. We are hoping to use those more 
broadly.
    Ms. Bordallo. Thank you, thank you. And Mr. Niemeyer.
    Secretary Niemeyer. Yes, ma'am. OSD, we would love to help 
them more, although we are not the resources. The services 
carry out their priorities. I think that is the best thing OSD 
can do to support that. We do encourage models and programs 
that allow us to take our limited O&M dollars and put it 
towards the most urgent requirements to address the most urgent 
priorities.
    Ms. Bordallo. That makes sense.
    Secretary Niemeyer. So we are dedicating a lot of our 
effort into making sure that, okay, yes, we are definitely 
taking a risk in our accounts, but the money we do get is 
knocking out our most critical facilities.
    Ms. Bordallo. Thank you. And thank you, Mr. Chairman, for 
being so generous.
    Mr. Wilson. Thank you, Ranking Member Bordallo.
    We now proceed to Congressman Joe Courtney of Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman.
    Ms. Bayer, I just wanted to touch for a moment on the 
public shipyard infrastructure situation which the Navy 
reported back after our NDAA request for an estimate in terms 
of just what is the task ahead. Again, it was $21 billion 
between now and 2040.
    Anyone who has visited any of these yards knows without 
much analysis that these shipyards, particularly with larger 
Virginia-class subs with the payload module extension and the 
buildup of the Navy in general, the dry docks, they all need to 
be upgraded.
    How do you sort of see--again, it is a long-range plan that 
was described--but how do you see that sort of fitting in with 
the budget of the Navy in terms of, in terms of infrastructure 
and trying to make it all sort of come together?
    Secretary Bayer. Thank you, Congressman. It is a long-range 
plan. And I have been in meetings with Vice Admiral Moore and 
he is, he and I are thinking the same way, that this 
optimization plan is phase one, and it is a very good start. 
But we believe that we have got a lot more work to do. Twenty-
one billion dollars is a lot of money. And we, again, want to 
put that money where it is best needed and can be used to the 
wisest use.
    One of the things that I particularly am a fan of is to 
look more closely and embrace where we can bring in modern 
technology, not just to optimize our current work processes, 
which is what the phase one plan looks at, but that we 
modernize the way we do our operations. And that would give us 
more efficient operations.
    I have seen evidence of how some corporate private sector 
companies are using less footprint, but increasing their 
productivity. I would like to see us do more of that.
    I would just comment on the pier up in New London. I am 
glad to report that there is money in the 2019 budget to begin 
the planning and design for that. And that is a first start.
    Mr. Courtney. Well, thank you. Again, obviously, a lot of 
us on this subcommittee and also on the Seapower Subcommittee 
are very animated about trying to find ways to get to the Force 
Structure Assessment's [FSA's] 355-ship Navy. But there is a 
lot of other factors, whether it is workforce, manpower, and, 
obviously, infrastructure, that has to sort of also be factored 
in, or you are going to have a lot of platforms and no money to 
operate them and no place to repair them.
    So I am glad you guys are focused on that, because it 
really is as much a part of the FSA as the sort of topline 
numbers.
    Secretary Bayer. Absolutely. I would like to just comment 
very briefly that we have seen where at both Norfolk and at 
Puget Sound where the rare skill sets, unique skill sets, I 
should say, that the shipyards themselves are creating training 
programs where they are bringing in young, talented people and 
training them on the special skills that we need to grow a 
workforce. So there are some promising things there and we want 
to learn and develop that workforce, but we are paying 
attention to that.
    Mr. Courtney. Thank you. I yield back.
    Mr. Wilson. We now proceed to Congressman Salud Carbajal of 
California.
    Mr. Carbajal. Thank you, Mr. Chairman.
    Mr. Gillis, as you know, I represent Camp Roberts and 
SATCOM [satellite communications station]. As we discussed in 
our meeting last week, I am concerned about the degradation of 
the east perimeter road that goes up to SATCOM.
    Just to let this committee know, SATCOM is designated as a 
mission-critical facility, so it is important that it is 
accessible. The road has been completely destroyed, and it is 
impossible to drive on the road without damaging your vehicle, 
at times, and possibly even yourself.
    It is my understanding Cal Guard [California National 
Guard] has met with DOD and expressed this repair as a 
priority, and requested it to be included in the current fiscal 
year budget or unfunded request list.
    I believe one course of action is to pursue a partial 
repair by repairing the road between Camp Roberts containment 
area and SATCOM through the O&M restoration project.
    Mr. Gillis, can you provide me your thoughts and any 
updates on this matter since we last met?
    Mr. Gillis. Yes, sir, I would be happy to. So it is a 
critical mission at Camp Roberts. The need for or the 
requirement to repair the road has been surfaced.
    We are looking now for a way to fund that in 2019, and 
would be happy to take for the record and come back to you as 
we make progress. Basically, trying to figure out the best 
split of money between the stakeholders involved.
    Mr. Carbajal. Thank you.
    Second question. The Army has set a requirement to be able 
to secure critical missions by providing necessary energy and 
water for a minimum of 14 days.
    Camp Roberts and SATCOM are currently depending on gas 
generators as their backup, but has expressed to me that it is 
critical that we start looking at battery storage, as gas 
generators can become a problem if they are unable to obtain 
the gas from local sources.
    Talking to your offices, I understand that one of the 
concerns is the high cost of battery storage. But you all are 
exploring other ideas, such as microgrids.
    Especially in the age where cyber attacks can easily 
disrupt our energy infrastructures, it is important that we 
have the capability to protect our military assets and have the 
capability to isolate ourselves from the grid that can be 
affected.
    Mr. Gillis, in terms of access to battery storage for bases 
like Camp Roberts, is there something Congress can do? Because 
at the end of the day, it is about security and resiliency.
    In terms of readiness, I can't think of anything more 
important than ensuring our installations have the capability 
to operate in any type of domain. Where, in the process, are we 
with microgrids? How can Congress assist to possibly speed up 
this process?
    Mr. Gillis. Thank you, sir. I appreciate the question. A 
couple of things. Microgrids, in general, we are deploying 
across the Army, and are looking as much as we can to leverage 
third-party financing mechanisms to do it. The Army has an 
Office of Energy Initiatives that looks for and seeks out those 
funding sources so that we can contribute to the increased 
resilience of Army installations.
    What we are trying to address with our 14-day requirement 
is to maintain that supply of electricity and water to maintain 
critical missions. So we are focusing on those critical 
missions first to try to increase readiness that way--
correction--to try to increase resilience that way.
    At Camp Roberts, for battery storage in particular, I think 
battery storage is promising because it continues to decrease 
in price. We just cut the ribbon on a solar project in 
Huntsville that incorporates solar and battery storage, and 
increases resilience at that installation.
    So I am encouraged by the future for battery storage.
    If I am not mistaken, you have got some solar assets at 
Camp Roberts. We have engaged the Office of Energy Initiatives 
to see what can be done to revitalize the sunk cost there and 
see what we can do to bring that back on line as a resource. 
And you have got my commitment that we will continue to look to 
see how we can integrate battery storage into that, as well.
    Mr. Carbajal. Thank you. Mr. Chair, I yield back, but I do 
have one more question if we do another round.
    Mr. Wilson. Thank you, Congressman Carbajal.
    We now go to Congressman Anthony Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    This question is for Mr. Gillis. It was a pleasure meeting 
with you in my office. I would have 10 questions. You answered 
nine of them. I only have one left.
    While Congress has provided significant additional funding 
in 2018, and I am sure you will see the same in 2019, for 
various programs and activities across the Army enterprise, 
many installations don't have sufficient civilian staffing or 
manpower to manage, execute, administer these programs and 
activities.
    In Maryland, where most of our installations are in support 
of RDT&E [research, development, test, and evaluation] 
missions, we have been seeing reductions in installation 
manpower; some installations, over 30 percent.
    My question is: Is there a plan to address these civilian 
shortfalls? Have you sent it to Congress? If not, when would 
such a plan be available?
    Mr. Gillis. Sir, I know that there are initiatives underway 
in the Army. I don't have the visibility on those that would 
allow me to give you an informed answer. So, if I could, I 
would like to take that for the record and we will get the 
right answer and bring it back to you regarding civilian 
hiring.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Brown. Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you. You are so kind, because now we can 
hear the final question from Congressman Carbajal.
    Mr. Brown. You didn't get your questions answered in your 
office?
    Mr. Carbajal. I was waiting for you to be done.
    Thank you, Mr. Chair.
    The importance of military departments ensuring 
installations and energy resilience for critical missions and 
infrastructure has been raised in the most recent NDAA, as well 
as referenced in the National Defense Strategy and the National 
Security Strategy.
    ``The homeland is no longer a sanctuary,'' is one quote 
from the National Defense Strategy in reference to the 
potential for physical attack, cyber attack, and extreme 
weather events that could gravely impact our energy-dependent 
missions.
    One of the ways your office is trying to ensure increased 
resiliency on our installations is through the Energy 
Resilience and Conservation Investment Program, ERCIP. This 
program has been successful in creating energy resilience on 
installations nationwide.
    The Army has committed to advancing the capability of 
systems installations, personnel, and units, to respond to the 
unforeseen disruptions and quickly recover. This would require 
the service to adopt flexible and adaptable approaches, and 
programs like ERCIP helps the Army to do this.
    This Nation's military must build resiliency, and this will 
require more investments into programs like ERCIP.
    Mr. Gillis, I wanted to hear your thoughts on this and any 
additional steps the Army is taking to address this concern of 
resiliency?
    Mr. Gillis. Yes, sir. ERCIP is an excellent program. We use 
that to address both energy conservation and energy resilience 
initiatives.
    We believe that energy conservation helps us ultimately 
achieve resilience more easily. ERCIP is a program that is 
administered by OSD, by the Department of Defense, and all the 
services submit projects, and the Army, Air Force, and Navy 
equally benefit from the existence of the ERCIP program. We 
prioritize the projects that we submit to that program, and 
have been very lucky to get very generous funding over the life 
span of the program.
    In addition to ERCIP, we also use energy savings 
performance contracts and utility energy contracts to use 
third-party financing and utility industry expertise to 
increase resilience on our installations.
    A couple of examples of those, more recently, is an ESPC 
[energy savings performance contract] that was awarded to 
include programmable thermostats, demand control of 
ventilation, interior-exterior lighting retrofits, and a 4-
megawatt combined heat and power plant at Fort Huachuca, 
reduces energy costs by about 23 percent to the installation, 
and it helps us achieve some reliability and progress toward 
energy security.
    We have done another UESC [utility energy service contract] 
at Fort Detrick to centralize boilers, which gives us about 
$1.8 million in annualized savings, and an ESPC at Fort Bliss 
should get us about $1.3 million in annual savings.
    So, those get us improved utilities infrastructures on our 
installation, which enhances resilience. In addition to ERCIP, 
ESPC, and UESC, those are three ways that we address it, and I 
think address it pretty ably.
    Mr. Carbajal. Thank you. I encourage your efforts to 
continue in this regard. Thank you.
    Mr. Chair, I yield back.
    Mr. Wilson. Thank you very much, Congressman Carbajal. 
Indeed, I have seen the success of the energy savings 
performance contracts. Best wishes on your continuing.
    I want to thank all the witnesses for being here today. 
Secretary Henderson, please express our best wishes to our 
former colleague, Secretary Heather Wilson, who I am happy to 
claim any time as a cousin.
    We thank all of you for being here, and each one of you for 
your service to our Nation. I want to thank Mr. Schulman for 
his service today, too.
    We are adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

    
=======================================================================

                            A P P E N D I X

                             April 18, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 18, 2018

=======================================================================
    

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 18, 2018

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MR. WILSON

    Secretary Niemeyer. The Department of Defense is self-insured for 
government-owned property. We exercise this self-insurance through the 
congressional authorization and appropriation process. Thus far, the 
total impact of the 2017 hurricane season on the Department of Defense 
was $2.1 billion. In November 2017, Congress provided $1.2 billion in 
the FY 2018 Budget Amendment Request to help DOD recover from 
Hurricanes Harvey, Irma, and Maria. Since November 2017, estimates have 
been refined and additional condition assessments were conducted at 
sites in Puerto Rico that were not previously accessible by qualified 
facility engineering assessment teams. The adjustments and added 
facility requirements total $985.9 million, which the DOD Components 
funded from existing FY 18 appropriations.   [See page 10.]
    Secretary Niemeyer. The Department is extremely appreciative of 
Congressional support for this program and its impact on the Secretary 
of Defense's strategic goal to strengthen alliances. We continue to 
assess the infrastructure need to implement an evolving EDI strategy as 
the posture situation in Europe changes, such as NATO bolstering its 
forward presence in Eastern Europe. The European Command (EUCOM) is 
looking across the Future Years Defense Program (FYDP) to build the 
full posture that the EUCOM Commander requires to deter Russian 
aggression. EUCOM's requirement process includes assessments of the EDI 
infrastructure required over the FYDP.   [See page 21.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MR. CARBAJAL
    Secretary Henderson. Mr. Carbajal, we understand your concerns in 
regards to Air Force Fire Protection not providing Emergency Medical 
Technician-level of care at our installations. The Air Force Director 
of Civil Engineers and the Air Force Surgeon General recently met and 
reached an agreement to allow firefighters to obtain and operate as 
Emergency Medical Technicians. We will base the number of firefighters 
certified as Emergency Medical Technicians on each installation's 
operational needs. This higher level of care will not only better 
protect those living and working on base, but will also increase 
firefighters' knowledge to better make decisions on the care and safety 
of patients. Additionally, we are developing a training curriculum and 
the logistical needs to support this requirement across the Air Force 
enterprise. We anticipate fully implementing this capability by the 
beginning of Fiscal Year 2019.   [See page 16.]
                                 ______
                                 
              RESPONSE TO QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Gillis. As the Assistant Secretary for Installations, Energy 
and Environment, my portfolio is focused on the manning of the 
garrisons on Army installations. Installation Management Command 
(IMCOM) integrates and delivers base support to enable readiness and 
lethality for a globally-responsive Army. With seventy-five garrisons 
around the world, IMCOM supports practically all commands while 
executing policy and priorities promulgated by Headquarters, Department 
of the Army. In fiscal year (FY) 2019 IMCOM civilian authorizations 
total 25,040, which is 11.6% less than FY 2015, and 29% less than FY 
2010. The Army made the difficult decision to reduce the civilian 
workforce to preserve and support other current and future Army 
priorities. IMCOM is taking action to reduce to the FY 2019 authorized 
manning level. To achieve those numbers, a Reduction in Force (RIF) is 
required at some garrisons and the Headquarters. On 6 June 2018, 
Congress will be notified as required. Specific to Maryland, U.S. Army 
Garrison Fort Meade and U.S. Army Garrison Aberdeen Proving Ground are 
included in the RIF. Where vacancies still exist, the Army encourages 
the use of direct hire authority by the garrisons to help make sure 
garrison manpower is adequate to provide services needed to maintain 
Army readiness. Additionally and when applicable, we encourage our 
garrisons to enter into public-public partnerships with local 
communities through inter-governmental support agreements.   [See page 
26.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 18, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. BISHOP

    Mr. Bishop. There are several DOD installations and test/training 
ranges primarily in the western U.S. which operate on vast tracts of 
public lands that are withdrawn from the Department of Interior control 
pursuant to temporary leases, which often are issued for 25 years. In 
order to renew the lease withdrawal, the affected military department 
must apply to renew the lease and as a condition of the permit, must 
also undertake an expensive and time-consuming environmental review 
along with public input under the Administrative Procedures Act. Since 
this protocol has been in place, there has never been an instance where 
the lease was not renewed. Can the Department quantify how much time 
and money is spent per year conducting these reviews? What would be the 
financial and operational impact if these lands were permanently 
withdrawn for military use?
    Secretary Niemeyer. The Department of Defense (DOD) currently 
utilizes several million acres of public domain lands, primarily in the 
western United States and Alaska, for military purposes such as 
training and testing. These lands are withdrawn from the public domain 
and reserved for DOD use (and, in some instances, other compatible 
uses). A significant portion of these lands are withdrawn and reserved 
on an indefinite basis by public land order, Executive Order, or other 
legal mechanism. The remainder of these lands are withdrawn and 
reserved by statute; it is this latter category of lands that generally 
has a time limitation on the length of the withdrawal and reservation, 
recently 25 years being the congressionally preferred period. While 
these lands are reserved for DOD use for a period of years, they are, 
for the most part, still managed by the Department of the Interior 
(DOI). Approximately 5 years before such a withdrawal and reservation 
expires, DOD begins the process for renewal. That process includes 
preparation of an environmental impact statement pursuant to the 
National Environmental Policy Act (NEPA), an action that generally 
takes at least two years, costs several millions of dollars, and 
consumes very substantial staff time. In addition, considerable time 
and resources are expended in meetings with local members of the 
public, local officials, and congressional representation. During the 
entire period, the Military Department that operates the installation 
also coordinates with DOI, both with regard to the NEPA analysis and 
with regard to how and under what terms the withdrawal and reservation 
should be renewed. This consumes considerable time and effort by staff 
at DOI as well as DOD. These costs are not annual costs but costs that 
occur during the renewal process over the last several years of a 
particular location's withdrawal term. As such, it is difficult to plan 
or budget for them because they consume staff time of both DOD and DOI 
on an irregular, intermittent basis and must be performed by personnel 
with specialized knowledge and experience in the withdrawal process. 
Hence they are particularly disruptive to steady-state management. The 
financial cost of a single withdrawal, adding both NEPA compliance and 
staff resources, would total several millions of dollars over the 
renewal period, although the disruption to staff resources is more 
damaging than the cost in money. An indefinite withdrawal and 
reservation (technically, there are no `permanent' reservations) would 
provide substantial benefit to both DOD and DOI, if addressed in a 
manner that promotes sound land management. Operationally, an 
indefinite withdrawal and reservation allows better long-term planning 
for the installation, thereby reducing overall costs. It avoids any 
question as to long-term land uses, particularly by tenant activities 
that may be located on the installation, such as long-lived energy 
production facilities. The current process of once-a-generation review 
by Congress does not provide responsible or meaningful land management. 
Responsible land management must take place continuously. Consequently, 
mechanisms such as those contained in section 2831 of H.R. 5515, the 
National Defense Authorization Act for Fiscal Year 2019, relating to 
better communication between DOI, DOD, state and local officials, the 
public, and Congress along with increased transparency would be more 
beneficial to sound land management than keeping an ineffective once-a-
generation review process that does not provide meaningful oversight. 
While proposals to provide for indefinite withdrawals and reservations 
do not change land management responsibility, which generally remains 
in DOI, they would more closely mirror the non-statutory withdrawals 
and reservations. Those withdrawals and reservations have, in some 
instances, been in existence since the Second World War, if not before; 
DOD has no evidence that those lands have been managed with less care 
than statutory withdrawals, even though they are and always have been 
indefinite.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. COURTNEY
    Mr. Courtney. The Office of Economic Adjustment, which funds 
programs to ensure that military installations and military connected 
industries maintain productive and beneficial relationships with local 
communities. In Connecticut, we have seen the enormous benefit of this 
office, which has organized and funded several Joint Land Use Studies. 
These studies have helped avoid encroachment at two National Guard 
bases in Connecticut and develop a plan with several municipalities to 
prepare for the arrival of Block V Virginia-class submarines on the 
Thames River. Mr. Niemeyer, your testimony states that the office ``is 
an essential interface to promote constructive and mutually beneficial 
alliances and partnerships with local communities'' and ``Maintaining 
support for this Office is crucial to the continued ability of our 
installations to safely and securely operate.''
    Recently, a proposal was introduced to eliminate the Office of 
Economic Adjustment. Can you describe the importance of the office, its 
role, and your view on its performance and benefit to the Department 
and our local communities?
    Secretary Niemeyer. The support of defense communities and States 
are absolutely essential to protect our military installations and 
ranges in the Department of Defense. In addition, these same 
communities will have a critical role in the enhancement of training 
and readiness activities and the resilience of military infrastructure 
to support the priorities of the National Defense Strategy. OEA is the 
Secretary of Defense's primary office for interaction and collaboration 
with the states, territories, and hundreds of defense communities 
around the country on initiatives to preserve and enhance military 
capabilities. OEA's current mission lines: 1) directly support 
lethality and readiness, quality of life, and collaboration and 
alliance; 2) are neither duplicated, nor replicated, elsewhere in the 
Department; 3) leverage other Federal, state, and local resources to 
support the Department; and, 4) routinely lessen the political cost to 
any Department effort that impacts states and cities. Specifically, the 
OEA program of assistance includes the following efforts:
    <bullet>  Provides essential planning assistance to defense states 
and communities to support safe and secure military operations at our 
installations and ranges by promoting compatible development near these 
facilities and working to alleviate instances of incompatible 
development. Often these efforts lead to civilian activities in 
addition to the assistance provided that directly benefits the 
Department.
    <bullet>  Works with states and communities to help strengthen the 
resilience of their supply chains to withstand the fluctuations of 
Defense spending. These efforts maintain the effective delivery of 
goods and services for our installations and warfighters. Often these 
efforts also include strengthening and sustaining civilian activities 
to make these supply chains more resilient so they can effectively 
function under the current cybersecurity environment.
    <bullet>  Helps defense communities effectively work with the 
Services to facilitate the prompt transfer of surplus and excess 
property, which frees up critical resources to be used to support the 
warfighter. This program allows defense communities to leverage 
Federal, state, local, public, and private resources to effectively 
redevelop the base property, which minimizes the economic impact of the 
closure.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HARTZLER
    Mrs. Hartzler. The Office of Economic Adjustment has been 
tremendously valuable to defense-supporting communities around the 
state of Missouri and to the state government itself. The efforts by 
OEA in Missouri have been designed to work through the communities and 
the state to support the missions of our military installations, such 
as Whiteman Air Force Base and Fort Leonard Wood. Can you please 
discuss how the elimination of OEA may impact these communities and the 
programs supported by the agency?
    Secretary Niemeyer. OEA's mission is neither duplicated nor 
replicated elsewhere in the Department--it is the Secretary of 
Defense's primary office for interaction and collaboration with the 
states, territories, and hundreds of defense communities around the 
country on initiatives to preserve military capabilities. Great care 
has been taken through OEA's existence to ensure OEA's mission has not 
be duplicated in the Services and that its capabilities support and 
benefit the Services. The costs of eliminating OEA would result in 
additional costs to establish the capability elsewhere, and could 
result in redundant efforts across each of the Military Departments. 
OEA's program of assistance is the only means for the Department--and 
the Federal government as a whole--to directly impact civilian 
activities that, in turn, provide direct value and savings to the 
warfighter by allowing the Department to reduce costs through shedding 
excess infrastructure, engaging a more resilient supply chain and 
competitive defense manufacturing sector, and enhancing lethality of 
our assets.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. Mr. Niemeyer, the last NDAA directed the Department to 
provide a briefing to this committee on establishing a standardized 
method for calculating in-kind contributions for financial institutions 
on military installations. The briefing was due by March 1, 2018. What 
is the status of this report? Will HASC receive this briefing before 
the NDAA gets marked up? Please follow up with my office with a firm 
date of the report's release.
    Secretary Niemeyer. The required briefing will be provided to HASC 
staff on April 24, 2018. The brief will be jointly prepared and 
presented by Department representatives from the offices of the Under 
Secretaries of Defense for Acquisition & Sustainment, Comptroller and 
Personnel & Readiness.
    Mr. Brown. This committee has long recognized that our defense 
communities are the foundation of our readiness and the Department's 
only direct connection to communities is the Office of Economic 
Adjustment. For almost 60 years, OEA has been there to make sure DOD is 
a good neighbor and we are supporting the communities we rely on every 
day for support. In light of the Chairman's recommendation that would 
eliminate OEA, can you share the Department's view on this agency and 
its importance?
    Secretary Niemeyer. The support of defense communities and States 
are absolutely essential to protect our military installations and 
ranges in the Department of Defense. In addition, these same 
communities will have a critical role in the enhancement of training 
and readiness activities and the resilience of military infrastructure 
to support the priorities of the National Defense Strategy. OEA is the 
Secretary of Defense's primary office for interaction and collaboration 
with the states, territories, and hundreds of defense communities 
around the country on initiatives to preserve and enhance military 
capabilities. OEA's current mission lines: 1) directly support 
lethality and readiness, quality of life, and collaboration and 
alliance; 2) are neither duplicated, nor replicated, elsewhere in the 
Department; 3) leverage other Federal, state, and local resources to 
support the Department; and, 4) routinely lessen the political cost to 
any Department effort that impacts states and cities. Specifically, the 
OEA program of assistance includes the following efforts:
    <bullet>  Provides essential planning assistance to defense states 
and communities to support safe and secure military operations at our 
installations and ranges by promoting compatible development near these 
facilities and working to alleviate instances of incompatible 
development. Often these efforts lead to civilian activities in 
addition to the assistance provided that directly benefits the 
Department.
    <bullet>  Works with states and communities to help strengthen the 
resilience of their supply chains to withstand the fluctuations of 
Defense spending. These efforts maintain the effective delivery of 
goods and services for our installations and warfighters. Often these 
efforts also include strengthening and sustaining civilian activities 
to make these supply chains more resilient so they can effectively 
function under the current cybersecurity environment.
    <bullet>  Helps defense communities effectively work with the 
Services to facilitate the prompt transfer of surplus and excess 
property, which frees up critical resources to be used to support the 
warfighter. This program allows defense communities to leverage 
Federal, state, local, public, and private resources to effectively 
redevelop the base property, which minimizes the economic impact of the 
closure.
    Mr. Brown. This committee has long recognized that our defense 
communities are the foundation of our readiness and the Department's 
only direct connection to communities is the Office of Economic 
Adjustment. For almost 60 years, OEA has been there to make sure DOD is 
a good neighbor and we are supporting the communities we rely on every 
day for support. In light of the Chairman's recommendation that would 
eliminate OEA, can you share the Department's view on this agency and 
its importance?
    Secretary Bayer. OEA's mission is significant and important to the 
Department of the Navy (DON). It assists in preserving and enhancing 
military capabilities as it is the Department of Defense's (DOD) lead 
office for interacting and collaborating with states, territories, and 
defense communities around the country on initiatives. OEA leverages 
other Federal, state, and local resources to support the Department 
initiatives on compatible development, disposal and reuse of property, 
and maintain effective supply chains for goods and services. This 
reduces costs for the DON. OEA's relationships and initiatives with 
states, territories, and defense communities routinely lessen the 
political cost to any DON effort that impacts those states and cities. 
Specifically, OEA has assisted DON in promoting compatible development 
near our installations by providing essential planning assistance to 
defense states and communities. Joint Land Use Studies have benefited 
our installations by identifying compatible use opportunities and 
developing plans to alleviate instances of incompatible development. 
OEA continues to assist the DON with the transfer of surplus and excess 
property, which frees up resources to support the warfighter. The OEA 
program allows defense communities to leverage Federal, state, local, 
public, and private resources to redevelop installation property, 
minimizing the economic impact of the closure.
    Mr. Brown. This committee has long recognized that our defense 
communities are the foundation of our readiness and the Department's 
only direct connection to communities is the Office of Economic 
Adjustment. For almost 60 years, OEA has been there to make sure DOD is 
a good neighbor and we are supporting the communities we rely on every 
day for support. In light of the Chairman's recommendation that would 
eliminate OEA, can you share the Department's view on this agency and 
its importance?
    Secretary Henderson. The support of defense communities and States 
are essential to protect the Air Force's installations and ranges. In 
addition, these same communities will have a critical role in the 
enhancement of training and readiness activities and the resilience of 
military infrastructure to support the priorities of the National 
Defense Strategy. OEA is the Department of Defense's primary office for 
interaction and collaboration with the states, territories, and 
hundreds of defense communities around the country on initiatives to 
preserve and enhance military capabilities. The Air Force leverages 
these capabilities to directly support lethality and readiness, quality 
of life, and collaboration and alliance. Specifically, OEA programs of 
assistance includes the following efforts:
    <bullet>  Provides essential planning assistance to defense states 
and communities to support safe and secure military operations at our 
installations and ranges by promoting compatible development near these 
facilities and working to alleviate instances of incompatible 
development.
    <bullet>  Works with states and communities to help strengthen the 
resilience of their supply chains to withstand the fluctuations of 
Defense spending. These efforts maintain the effective delivery of 
goods and services for our installations and warfighters.
    <bullet>  Helps defense communities effectively work with the Air 
Force to facilitate the prompt transfer of surplus and excess property, 
which frees up critical resources to be used to support the warfighter. 
This program allows defense communities to leverage Federal, state, 
local, public, and private resources to effectively redevelop the base 
property, which minimizes the economic impact of the closure.
    Mr. Brown. This committee has long recognized that our defense 
communities are the foundation of our readiness and the Department's 
only direct connection to communities is the Office of Economic 
Adjustment. For almost 60 years, OEA has been there to make sure DOD is 
a good neighbor and we are supporting the communities we rely on every 
day for support. In light of the Chairman's recommendation that would 
eliminate OEA, can you share the Department's view on this agency and 
its importance?
    Mr. Gillis. The Army and other military departments maintain their 
own close, direct connections with the communities which host them. 
Army leaders at Fort Meade, Fort Detrick, Aberdeen Proving Ground and 
elsewhere throughout the country regularly communicate and form 
partnerships with local communities in a variety of ways and forums to 
share information and resources, and undertake initiatives of mutual 
interest and mutual benefit. Army installations work closely with local 
and regional planning agencies to establish regional compatible land 
use plans which minimize impacts of installation operations and 
development, respect future growth patterns and development, and seek 
mutually compatible land uses and zoning considerations. The Office of 
Economic Adjustment (OEA) implements certain important authorities 
which Congress has provided to the Secretary of Defense that are unique 
within DOD. Those authorities enable OEA to provide direct grants and 
technical assistance to communities facing potential shifts in economic 
stability because of changes within the defense industry. OEA also 
provides technical and financial assistance directly to state or local 
governments to help develop plans to meet the future growth needs of 
the community, while protecting the sustainability of military training 
and readiness missions. The Army certainly appreciates the importance 
of the technical and financial assistance OEA provides which 
complements the Army's established relationships with Army communities.

                                  [all]
</pre></body></html>
